                            REVIEW REPORT                                   IG-04-007



Report Recipients:
ARC/D/Center Director
ARC/241-1/Procurement        REVIEW OF SOLE-SOURCE AND LIMITED
 Officer
GRC/0100/Center Director    COMPETITION CONTRACT ACTIONS CITING
GRC/500-313/Procurement      “UNUSUAL AND COMPELLING URGENCY”
 Officer
MSFC/DA01/Center Director
MSFC/PS01/Procurement                           January 8, 2004
 Officer



cc:
AO/Chief Information
  Officer
G/General Counsel
H/Associate Administrator
  for Procurement
JM/Director, Management
  Assessment Division
JM/Team Lead (Audit)




                            OFFICE OF INSPECTOR GENERAL
                            Released by: __[original signed by]_______________
 National Aeronautics and   David M. Cushing, Assistant Inspector General for Auditing
 Space Administration
IG-04-007                                                       January 8, 2004
 G-03-002

            Review of Sole-Source and Limited Competition
       Contract Actions Citing “Unusual and Compelling Urgency”
We reviewed NASA’s use of the unusual and compelling urgency (urgency) exception to
competition at three NASA Centers – Ames Research Center (Ames), Glenn Research
Center (Glenn), and Marshall Space Flight Center (Marshall). We conducted this review
because competition in contracting improves the efficiency and economy of the
Government. Competition is the primary method for procurement in the Federal
Government because, as stated in NASA’s “Competition Requirements Quick Reference
Guide,” it can result in “lower prices, better products, safe effective performance, and can
also provide innovative, commercial solutions . . .” to meet the Government’s needs.

We found no material deficiencies in Marshall’s use of the urgency exception for 17
contract actions we reviewed. While the majority of the contract actions we reviewed at
Ames and Glenn were appropriate, these two centers can better justify and manage their
use of the urgency exception. Specifically, 4 (20 percent) of the 20 sole-source and
limited competition contract actions that cited the urgency exception at Ames and Glenn
did not contain adequate justifications in accordance with the Federal Acquisition
Regulation (FAR) and NASA FAR Supplement.

We found that Agency procurement and technical personnel did not include sufficient
facts and rationale in the justifications to support the use of the urgency exception,
including rationale to demonstrate that the Government would be seriously injured unless
the Agency limited the number of sources from which it solicited offers. Also, the need
for the exceptions was driven by the Agency’s failure to plan the actions sufficiently in
advance rather than by a truly unusual and compelling need. Finally, we identified a
specific control weakness at Glenn in that some Contracting Officers (COs) did not
submit the Justifications for Other than Full and Open Competition (JOFOCs) for the
required review by the Center procurement policy group.

Because of the lack of adequate justifications for the four identified contract actions,
NASA has less assurance that it received fair and reasonable prices for these actions,
which had a total value of $8.5 million. A previous academic study of potential savings
through competition in contracting indicated that savings vary from 15 to 50 percent
depending on specific circumstances and market factors. Considering the specific
circumstances of the four contract actions in question, we believe that potential savings
would likely have been in the lower end of this range.

We made five recommendations to assist NASA management improve the efficiency and
effectiveness of its contracting by increasing the procurement and technical program
community’s awareness of Federal and Agency regulations and procedures for limited
competition procurements, planning more effectively for procurements, and ensuring that
appropriate justification exists and is documented for such procurements.


                                             1
Management concurred with all of the recommendations. The complete text of
management’s response is in Appendix E. We consider management’s proposed or
completed corrective actions responsive to our recommendations.

Requirements for Use of the Urgency Exception

The Competition in Contracting Act (CICA) of 1984, with limited exceptions, requires
full and open competition in Federal contracting. Full and open competition means that
all responsible sources are permitted to submit offers on Government requirements. The
FAR and NASA guidance allow for exceptions to full and open competition, but such
exceptions are to be limited and fully justified and approved. One such exception is
based on urgency. FAR 6.302-2, “Unusual and compelling urgency,” states “when the
agency’s need for supplies or services is of such an unusual and compelling urgency that
the Government would be seriously injured unless the agency is permitted to limit the
number of sources from which it solicits bid and proposals, full and open competition
need not be provided for.” However, agencies must use prudent business judgment and
adhere to procurement regulations when exercising the urgency exception to full and
open competition.

When a requirement is determined to be urgent, the procurement office, in collaboration
with the technical office (i.e., the program or project office requesting the procurement),
must make a written justification for the proposed noncompetitive acquisition. This
justification, known as the JOFOC, must be in writing and contain sufficient facts and
rationale to support the use of the exemption cited. The CO is required to certify the
JOFOC as accurate and complete, to the best of his or her knowledge. Also, technical or
requirements personnel must certify supporting data provided to the CO as a basis for the
justification. Further, approval and justification by additional NASA officials may be
necessary, contingent on the dollar value of the acquisition and/or individual Center
policies.1

Procuring agencies are also required to publicly synopsize proposed limited competition2
contract actions under most of the statutory authorities permitting contracting without
providing for full and open competition. In publicly synopsizing the requirement, the
Government ensures that any and all responsive offers are able to compete for the
requirement. Further, this opens the procurement process to public scrutiny, under which
the Government must have a justifiable reason for limiting competition for the
requirement. However, because of the pressing need for the required goods and services
inherent in the use of the urgency authority, agencies are not required to issue such
notices when citing this exception. Therefore, because of the lack of transparency and
the opportunity for public scrutiny, the Agency has a greater vulnerability for misuse of
the urgency exception to full and open competition.


1
  The thresholds for such approval and justification are in FAR 6.304 and NASA FAR Supplement
1806.304-70.
2
  “Limited Competition” means limiting the number of sources from which the Government solicits bids or
proposals, including sole-source actions.


                                                   2
Details on our review objectives, scope, and methodology are in Appendix B.

Contract Actions Citing the Urgency Exception Lacked Adequate Justifications

NASA COs and cognizant technical personnel at Ames and Glenn did not include
adequate details in the JOFOCs, as required by the FAR and NASA FAR Supplement, for
four contract actions that cited the urgency exception (see Appendix C for the JOFOC
requirements). The following table summarizes, by Center, the number of contract
actions we reviewed and shows the number and dollar value of the actions without
adequate justifications.

              Number of         Number of Actions    Percentage of Actions   Value of Actions
NASA        Contract Actions    Without Adequate      Without Adequate       Without Adequate
Center         Reviewed           Justifications         Justifications       Justifications
Ames               9                     1                     11              $ 306,766
Glenn             11                     3                     27                8,199,998
Totals            20                     4                     20              $ 8,506,764

The inadequate justifications were:

   •     At Ames, the JOFOC for a $306,766 action for aviation safety research
         and simulation services. The justification did not make reference to any
         market research conducted, describe the supplies and/or services to be
         acquired, or give an estimated cost for the effort. Further, the justification
         did not identify the contractor by name, describe the contractor’s unique
         capabilities, address the extent of harm to the Government, or include a
         CO certification of the cost as being fair and reasonable, as required by
         FAR Subpart 6.3.

   •     At Glenn, the JOFOC for a $7.2 million extension to the period of
         performance for aerospace research and development support services.
         While the JOFOC did identify the statutory basis for not competing the
         action, the justification did not identify the statutory exception to the
         synopsis requirement (e.g., urgency) or adequately address the specific
         extent and nature of the harm to the Government that necessitated the use
         of the urgency exception, as required by FAR Subpart 6.3 and NASA FAR
         Supplement Subpart 1806.3.

   •     At Glenn, the JOFOCs for two related contract actions, each valued at
         $499,999, involving a collaborative tools test program. The justifications
         for both actions cited unique vendor capabilities, based primarily on
         consultant opinions, but provided little other explanation. Further, the
         justification made no reference to the extent and nature of the harm to the
         Government necessitating the urgency exception, made no reference to
         other market research, and did not include a statement whether any other
         parties expressed an interest in the requirement, as required by FAR
         Subpart 6.3.


                                               3
The Need for Using the Urgency Exception Was Driven by a Lack of Sufficient
Advance Planning

For all four of the contract actions that lacked adequate justifications, the cognizant
technical offices did not forward their requirements to the Center procurement offices in
sufficient time to allow for full and open competition. The urgency was driven by a lack
of sufficient advance planning, rather than a truly unusual and compelling need for
supplies or services. The contracts we reviewed were not unknown requirements that
developed, but rather were support services requirements for which the need should have
been adequately planned. The NASA FAR Supplement contains justification
requirements that ensure this situation does not occur.

Based on Types of Procurement Action categories, the contract actions we reviewed
require lead times between 150 and 325 days. The technical offices did not initiate the
procurement actions within the established lead times for any of the four actions. For
example:

   •   The standard lead time for a procurement action such as the aviation
       services contract at Ames is 150 days. The technical office needed the
       services by September 30, 2001. However, Ames did not initiate the
       action until mid-July 2001 – approximately 75 days before the technical
       office needed the services. The CO stated that the urgency authority was
       necessitated by NASA Headquarters’ delay in designating Ames as the
       lead Center for the activity.

   •   The standard lead time for a procurement action such as the support
       services contract extension at Glenn is 325 days. However, Glenn did not
       initiate the action until 175 days before the expiration of the original
       contract. The CO and senior procurement officials indicated that the delay
       in initiating the action was a result of the inability of the procurement
       office to have the technical office designate a qualified Source Evaluation
       Board Chairperson and other necessary technical board members. The
       lack of advance planning necessitated the procurement action for the sole-
       source extension to the incumbent contract.

   •   The standard lead time for the two contract actions at Glenn was 150 days.
       Both actions cited the September 11, 2001, tragedy at the World Trade
       Center as the justification, but the contract actions were not initiated until
       mid-May 2002 – about 240 days after the tragedy.

       Glenn procurement and technical representatives indicated that this pilot
       effort was initiated by the Chief Information Officer’s (CIO) Office at
       Headquarters before the tragedy of September 11. However, the actual
       procurement activity was delayed while the CIO’s office awaited inputs
       from consultant studies and decided which NASA Center would be
       designated as the lead Center for the pilot program. The decision to


                                             4
        designate Glenn as the lead center for this activity was not made until
        early-April 2002, and funding for the activity was not provided until mid-
        May 2002.

Glenn JOFOCs Not Reviewed in Accordance With Center Policy

For 6 (55 percent) of the 11 actions reviewed at Glenn, the COs did not submit the
JOFOCs for review by the procurement policy group, as required by Center policy.3
Glenn Center Procedure No. GRC-P3.9.2.2, “Sole Source Justifications and Justifications
for Other Than Full and Open Competition,” requires that Glenn COs submit JOFOCs to
the Center’s Acquisition Support Branch for review to enhance competition in Glenn
acquisitions and improve the quality of future justifications.

Recommendations, Management’s Response and Evaluation of Management’s
Response

The Ames Center Director should:

    1. Direct the Center Procurement Officer to ensure that the CO and cognizant
       technical personnel for contract NAS2-01082 be reminded of the
       requirement to adequately justify sole-source procurements using the
       urgency exception in accordance with FAR and NASA FAR Supplement
       requirements.

    2. Direct cognizant technical program officials to submit procurement
       requirements to the procurement office with sufficient lead time to allow for
       proper market research and other required actions.

Management’s Response. Concur. On November 5, 2003, the Ames Director
issued separate memorandums to the Procurement Officer and to Center-wide
distribution addressing these issues. One memorandum directed the Procurement
Officer to ensure that the Contracting Officer and the Contracting Officer’s
Technical Representative for contract NAS2-01082 adequately justify sole-source
procurements using the urgency exception in accordance with the FAR and
NASA FAR Supplement requirements. The other memorandum, to Center-wide
distribution, directed that all individuals who are involved in procurements assure
that adequate time is provided the Acquisition Division to allow the Center to
meet the intent of the law and implementing regulations. This memorandum
further directed that that the reason for the exception be fully justified and
approved.



3
  Glenn’s Acquisition Support Branch reviewed all three of the contract actions in question (see
Appendix D). Two of the review memorandums stated that “the subject sole-source justification addressed
all regulatory and statutory requirements” and the other two memorandums stated that “certain information
required by the FAR [including adequate support for the use of the urgency exception] was not addressed.”


                                                    5
Evaluation of Management’s Response. We received signed copies of the Ames
Director’s memorandums, which are responsive to the recommendations. These
recommendations are, therefore, resolved and dispositioned and will be closed for
reporting purposes.

The Glenn Center Director should:

   3. Ensure that Center procurement and technical program officials adequately
      justify sole-source procurements using the urgency exception in accordance
      with FAR and NASA FAR Supplement requirements.

   4. Direct cognizant technical program officials to submit procurement
      requirements to the procurement office with sufficient lead-time to allow for
      proper market research and other required actions.

   5. Direct the Center Procurement Officer to ensure that all COs submit
      JOFOCs to the Acquisition Support Branch for review in accordance with
      Center policy.

Management’s Response. Concur. The Glenn Procurement Officer will (1) send a
memorandum to all procurement staff specifying the FAR and NASA FAR Supplement
requirements for justifying urgent sole source procurements; (2) provide all Center COs
with a checklist specifying the FAR and NASA FAR Supplement requirements for
justifying and documenting decisions to use other than full and open competition; and (3)
send a memorandum to all procurement staff reminding them of the requirement to
submit all JOFOCs to the Procurement Policy Analyst for post-approval review. In
addition, a Glenn Procurement Policy Analyst will continue to perform an annual review
of Center JOFOCs. Further, the Glenn Center Director will issue a memorandum to
technical program and project managers reminding them to submit procurement
requirements to the Procurement Division with sufficient lead time for proper market
research and procurement processing without having to limit competition due to urgency.
The projected completion date for these corrective actions is February 29, 2004.

Evaluation of Management’s Response. Management’s proposed corrective actions are
responsive to the recommendations. These recommendations are resolved but will
remain undispositioned and open until the proposed memorandums are issued.




                                            6
Appendixes

Among the appendixes, note Appendix D, which provides statistical information for the
contract actions reviewed.




                                          7
List of Appendixes

Appendix A – Status of Recommendations

Appendix B – Objectives, Scope, and Methodology

Appendix C – Competition Requirements

Appendix D – Contract Actions Reviewed

Appendix E – Management Comments

Appendix F – Report Distribution




Acronyms Used in the Report

CICA        Competition in Contracting Act
CIO         Chief Information Officer
CO          Contracting Officer
FAR         Federal Acquisition Regulation
FY          Fiscal Year
JOFOC       Justification for Other Than Full and Open Competition




                                        8
                 Appendix A. Status of Recommendations


Recommendation No.      Resolved     Unresolved   Open/ECD*   Closed
       1                   X                                    X
       2                   X                                    X
       3                   X                       02/29/04
       4                   X                       02/29/04
       5                   X                       02/29/04

* ECD – Estimated Completion Date.




                                       9
                Appendix B. Objectives, Scope, and Methodology

Objectives

Our objectives were to review the sole-source and limited competition contract actions
citing the urgency authority to determine whether:

    •   Contract actions using this authority were supportable based on the market
        research and procurement planning activities done prior to the issuance of the
        contract action;

    •   These actions were being adequately justified, and properly reviewed and
        approved in accordance with Federal, Agency, and Center regulations and
        policies; and

    •   NASA was attempting to compete these requirements as much as practicable, as
        required by FAR 6.302-2, or whether these procurements normally resulted in
        “only one offer.” 4

Scope and Methodology

We performed the review at three NASA Centers: Ames Research Center (Ames), Glenn
Research Center (Glenn), and Marshall Space Flight Center (Marshall). At the three
Centers, we examined all contract actions from fiscal years (FYs) 2000 through 2002 that
cited the urgency exception to competition. We reviewed 9 actions at Ames, 11 actions
at Glenn, and 17 actions at Marshall, for at total of 37 contract actions.

We reviewed all pertinent Federal, Agency, and Center-specific laws, policies, and
procedures pertaining to contracting without full and open competition. For each
contract action sampled, we reviewed pertinent contract file documentation including the
Justification for Other Than Full and Open Competition (JOFOC) and the results of any
market research conducted by the procurement team. We also interviewed Contracting
Officers, Contracting Officer’s Technical Representatives, and other procurement
officials for the selected contract actions.

Use of Computer-Generated Data

We used computer-generated data from the NASA Acquisition Management System to
identify the universe of contract actions at the three Centers and compared the contract
numbers and dollar values from the system-generated list to the data in the contract files



4
 “Only one offer” can result from the Government contracting on a sole-source or limited competition
basis. However, a requirement can be competed by the Government through a formal solicitation, under
which only one offer is received. Of the 17 contract actions at Marshall, 3 involved only one offer, and we
found no problems with those actions.


                                                    10
                                                                            Appendix B

at the Centers. Nothing came to our attention to cause us to question the validity of the
number of contract actions that cited the urgency exception for the period reviewed.

Management Controls Reviewed

We reviewed management controls over the award of the noncompetitive contract action
at the three Centers. We determined that Ames and Glenn management could improve its
control over selected noncompetitive contract actions (see the findings on pages 1-3).

Review Field Work

We performed review work from December 2002 through May 2003 at Ames, Glenn,
and Marshall. This assignment began as an inspection activity in the NASA Office of
Inspector General Office of Inspections and Assessments, and the review was conducted
as a non-audit assignment in the new Office of Auditing. Although this review activity
did not follow generally accepted government auditing standards, appropriate inspection
and evaluation quality standards and controls were applied.




                                            11
                     Appendix C. Competition Requirements

Both the Federal Acquisition Regulation (FAR) and NASA FAR Supplement address
competition requirements. Those requirements are summarized below.

FAR Part 6.303-1, “Requirements”

    (a) A contracting officer shall not commence negotiations for a sole source contract,
commence negotiations for a contract resulting from an unsolicited proposal, or award
any other contract without providing for full and open competition unless the contracting
officer-
        (1) Justifies, if required in 6.302, the use of such actions in writing;
        (2) Certifies the accuracy and completeness of the justification; and
        (3) Obtains the approval required by 6.304.
    (b) Technical and requirements personnel are responsible for providing and certifying
as accurate and complete necessary data to support their recommendation for other than
full and open competition.
    (c) Justifications required by paragraph (a) of this section may be made on an
individual or class basis. Any justification for contracts awarded under the authority of
6.302-7 shall only be made on an individual basis. Whenever a justification is made and
approved on a class basis, the contracting officer must ensure that each contract action
taken pursuant to the authority of the class justification and approval is within the scope
of the class justification and approval and shall document the contract file for each
contract action accordingly.
    (d) If the authority of 6.302-3(a)(2)(i) or 6.302-7 is being cited as a basis for not
providing for full and open competition in an acquisition that would otherwise be subject
to the Trade Agreements Act (see Subpart 25.4), the contracting officer must forward a
copy of the justification, in accordance with agency procedures, to the agency's point of
contact with the Office of the United States Trade Representative.
    (e) The justifications for contracts awarded under the authority cited in 6.302-2 may
be prepared and approved within a reasonable time after contract award when preparation
and approval prior to award would unreasonably delay the acquisitions.

FAR Part 6.303-2, “Content”

    (a) Each justification shall contain sufficient facts and rationale to justify the use
of the specific authority cited. As a minimum, each justification shall include the
following information:
        (1) Identification of the agency and the contracting activity, and specific
        identification of the document as a "Justification for other than full and open
        competition."
        (2) Nature and/or description of the action being approved.
        (3) A description of the supplies or services required to meet the agency's
        needs (including the estimated value).
        (4) An identification of the statutory authority permitting other than full and
        open competition.



                                                12
                                                                                 Appendix C

         (5) A demonstration that the proposed contractor’s unique qualifications or
         the nature of the acquisition requires use of the authority cited.
         (6) A description of efforts made to ensure that offers are solicited from as
         many potential sources as is practicable, including whether a notice was or
         will be publicized as required by Subpart 5.2 and, if not, which exception
         under 5.202 applies.
         (7) A determination by the contracting officer that the anticipated cost to the
         Government will be fair and reasonable.
         (8) A description of the market research conducted (see Part 10) and the
         results or a statement of the reason market research was not conducted.
         (9) Any other facts supporting the use of other than full and open
         competition, such as:
           (i) Explanation of why technical data packages, specifications, engineering
         descriptions, statements of work, or purchase descriptions suitable for full and
         open competition have not been developed or are not available.
           (ii) When 6.302-1 is cited for follow-on acquisitions as described in
         6.302-1(a)(2)(ii), an estimate of the cost to the Government that would be
         duplicated and how the estimate was derived.
           (iii) When 6.302-2 is cited, data, estimated cost, or other rationale as to the
         extent and nature of the harm to the Government.
         (10) A listing of the sources, if any, that expressed, in writing, an interest in
         the acquisition.
         (11) A statement of the actions, if any, the agency may take to remove or
         overcome any barriers to competition before any subsequent acquisition for
         the supplies or services required.
         (12) Contracting officer certification that the justification is accurate and
         complete to the best of the contracting officer's knowledge and belief.
    (b) Each justification shall include evidence that any supporting data that is the
responsibility of technical or requirements personnel (e.g., verifying the
Government's minimum needs or schedule requirements or other rationale for other
than full and open competition) and which form a basis for the justification have been
certified as complete and accurate by the technical or requirements personnel.

NASA FAR Supplement Subpart 1806.3--Other Than Full and Open Competition
1806.303-270, “Use of unusual and compelling urgency authority”
 If the authority at FAR 6.302-2 is used for extending the performance period of an
existing services contract, the justification shall contain the information required by FAR
6.303-2 and;
  (a) Documentation that the acquisition process for the successor contract was started
early enough to allow for adequately planning and conducting a full and open
competition, together with a description of the circumstances that prevented award in a
timely manner; and



                                               13
                                                                           Appendix C


 (b) Documentation of the reasons why no other source could practicably compete for the
interim requirement.
1806.304-70, “Approval of NASA justifications”
 Concurrences and approvals for justifications of contract actions conducted in
accordance with FAR Subparts 6.2 and 6.3 shall be obtained as follows:
(a) For proposed contracts over $500,000 but not exceeding $10,000,000
    (1) Concurring official: Procurement Officer
    (2) Approving official: Center or Headquarters Competition Advocate.
(b) For proposed contracts over $10,000,000 but not exceeding $50,000,000
     (1) Concurring officials:
         (i) Procurement Officer
         (ii) Center or Headquarters Competition Advocate
     (2) Approving official: Head of the contracting activity
(c) For proposed contracts over $50,000,000
     (1) Concurring officials:
         (i) Procurement Officer
         (ii) Center or Headquarters Competition Advocate
         (iii) Head of the contracting activity
         (iv) Agency Competition Advocate
      (2) Approving Official: Assistant Administrator for Procurement
(d) The approval authority of FAR 6.304 (a) (3) may not be delegated to other than the
installation's Deputy Director.
(e) For proposed contract actions requiring approval by the Assistant Administrator for
Procurement, the original justification shall be forwarded to the Assistant Administrator
for Procurement (Code HS).
(f) Regardless of dollar value, class justifications shall be approved by the Assistant
Administrator for Procurement.




                                            14
                    Appendix D. Contract Actions Reviewed

The sole-source and limited competition contract actions, citing the urgency exception,
that we reviewed at Ames Research Center (Ames) and Glenn Research Center (Glenn)
are listed below.

                                                           Lack of
NASA       Contract                        Inadequate      Advance      Lack of Policy
Center     Number              Value       Justification   Planning        Review

 Ames      NAS2-00094      $     180,728
           NAS2-00094            210,176
             (Mod 1)
           NAS2-01058          150,000
           NAS2-01059          146,791
           NAS2-01062        5,163,167
           NAS2-01082          306,766            X           X
           NAS2-01085           98,692
           NAS2-01086          185,880
           NAS2-02081          499,500
Subtotal       9           $ 6,941,700            1           1

 Glenn     NAS3-00172      $     181,504                                       X
           NAS3-01081            499,503                                       X
           NAS3-01107            287,917
           NAS3-01117            297,289
           NAS3-01121            111,500                                       X
           NAS3-01122            111,923                                       X
           NAS3-01123            102,681                                       X
           NAS3-01162            490,000                                       X
           NAS3-02146            499,999          X           X
           NAS3-02147            499,999          X           X
           NAS3-27600          7,200,000          X           X
             (Mod 24)
Subtotal       11          $ 10,282,315           3           3                6

   Total       20          $ 17,224,015           4           4                6




                                             15
Appendix E. Management Comments




              16
17
18
                      Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
ADI/ Assistant Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems

NASA Centers

ARC/D/Director, Ames Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
KSC/CC/Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Managing Director, Natural Resources and Environment, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology,
 and Space




                                         19
                                                                      Appendix F

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

     Assistant Inspector General for Auditing
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Major Contributors to the Report

Joseph Kroener, Director, Procurement Audits

Lorne Dear, Associate Director, Procurement Audits

Joseph Fasula, Project Manager

Amy Larkin, Auditor

Iris Purcarey, Program Assistant




                                            21
